SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
TLOSSEAT ON@ SID LEY.COM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
CAPITAL CASE
No. 20Alan Eugene Miller,
v.

Petitioner

Commissioner, Alabama Department of Corrections,
Respondent.
I, Tobias S. Loss-Eaton, do hereby certify that, on this 25th day of March,
2021, I caused one copy and an electronic copy of the petition for a writ of certiorari
in the foregoing case to be served by first class mail, postage prepaid, on the
following parties:
Lauren A. Simpson
Audrey Jordan
Office of the Attorney General
501 Washington Ave.
Montgomery, AL 36130
/s/ Tobias S. Loss-Eaton
TOBIAS S. LOSS-EATON
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
tlosseaton@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

